IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

NO.

NOAH GASTON
Petitioner

Vv.

UNITED STATES OF AMERICA
Respondent

PROOF OF SERVICE

STATE OF MAINE }
COUNTY OF CUMBERLAND }

DEPOSITOR, being first duly sworn, deposes and says:

That on September 2%, 2021, within the time required by rule, a Petition for Writ of Certiorari in
the above entitled case was deposited in a United States Post Office mail box located in the City of Portland,
State of Maine, with first class postage prepaid, properly addressed to:

Clerk of the United States Supreme Court
1 First Street, NE
Washington, DC 20543

And that copies were also served upon Counsel for the Respondent:

Donald Macomber AAG
Office of the Attorney General
6 State House Station
Augusta, Maine 04333

And

The Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave NW,

Washington, DC 20530 ee 7 SE b /
Robert C. Andrews, Esq.

Depositor, Affiant
117 Auburn Street, Suite 201
Portland, ME 04103
Subscribed and Sworn to Before Me
This Zfth day of September, 2021

 

DEREK M, BERGNER :
f Notary Public, Maine oa

Notary Py6fic in and for said County and State My Commission Expuesidanilery'2/; 2028
